OIG Audit Report 99-13
Fingerprint and Biographical Check Services Provided by the Federal Bureau of Investigation to the Immigration and Naturalization Services
Report No. 99-13
March 1999
Office of the Inspector General
EXECUTIVE SUMMARY
The purpose of the audit was to evaluate the costs incurred by the Immigration and Naturalization Service (INS) for fingerprint and biographical checks performed by the Federal Bureau of Investigation (FBI).  This included an assessment of the efficiency and effectiveness of the systems used by INS and the FBI for the process of fingerprint and name checks.
The audit was conducted at the request of INS.  The objectives of the audit were to determine:  (1) the adequacy of INS practices and procedures for requesting and paying for fingerprint and name checks, and (2) the extent and accuracy of FBI billings for the requested services.  The audit concentrated on, but was not limited to, FY 1996.  Testing was expanded to include certain aspects of the fingerprint check process in FY 1997.  See Appendix I for Audit Scope and Methodology.
The INS operates pursuant to 8 CFR "Aliens and Nationality."  This regulation sets forth requirements for applicant submission of fingerprint cards and biographical data to the INS.  However, this regulation contains no guidance relative to INS requesting and paying for fingerprint and name checks.  The FBI authority for assessing fees from Federal agencies for fingerprint and biographical check services is Public Law 101?515, Title II, November 5, 1990, 104 Stat. 2112.
For FY 1996, INS paid the FBI $32.5 million to conduct approximately 1.8 million fingerprint checks.  In FY 1997 the INS payments increased to $45.5 million for 2.6 million fingerprint checks.  During FY 1996, the INS paid the FBI about $5.7 million to conduct approximately 1.6 million name checks.
Our audit disclosed that INS did not reconcile payments against its requests for fingerprint and name checks conducted by the FBI.  This occurred because INS used no system to track and account for all of the fingerprint and biographical check requests submitted to, or the results received from, the FBI.  As a result, during FY 1996 and FY 1997, INS paid approximately $7 million for unclassifiable and duplicate fingerprint cards, processed incomplete or inaccurate fingerprint checks for thousands of INS applicants, and did not detect a potential FBI underbilling of approximately $800,000.  For name checks, we identified approximately $220,000 that INS incurred unnecessarily for duplicate requests.  However, we also identified over $230,000 for services rendered by the FBI but not charged to the INS.  This latter amount is tempered by about $563,000 of charges not supported adequately by the FBI.